No. 20-1119
IN THE

Supreme Court of the United States
AMARIN PHARMA, INC. AND
AMARIN PHARMACEUTICALS IRELAND LIMITED,
Petitioners,
v.
HIKMA PHARMACEUTICALS USA INC., HIKMA
PHARMACEUTICALS INTERNATIONAL LIMITED,
DR. REDDY’S LABORATORIES, INC., AND DR. REDDY’S
LABORATORIES, LTD.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

REPLY BRIEF FOR PETITIONERS

MARK C. FLEMING
AMY R. PEARLMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
JONATHAN E. SINGER
FISH & RICHARDSON P.C.
12390 El Camino Real
San Diego, CA 92130
(858) 678-5634

SETH P. WAXMAN
Counsel of Record
CLAIRE H. CHUNG
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ........................................... ii
INTRODUCTION .............................................................. 1
ARGUMENT........................................................................ 3
I.

THE FEDERAL CIRCUIT’S PRIMA FACIE
FRAMEWORK CONFLICTS WITH THIS
COURT’S PRECEDENT ................................................... 3

II. THIS CASE PLAINLY RAISES THE
QUESTION PRESENTED ................................................ 6
III. THE REMAINING ISSUES ARE FOR LOWER
COURTS TO DECIDE ...................................................... 8
CONCLUSION ................................................................. 11

ii
TABLE OF AUTHORITIES
CASES
Page(s)
Goodyear Tire & Rubber Co. v. Ray-O-Vac Co.,
321 U.S. 275 (1944) ....................................................... 4
Graham v. John Deere Co. of Kansas City, 383
U.S. 1 (1966) .......................................................... 1, 3, 4
KSR International Co. v. Teleflex Inc., 550
U.S. 398 (2007) .................................................. 1, 4, 5, 6
Ohio Willow Wood Co. v. Alps South, LLC, 735
F.3d 1333 (Fed. Cir. 2013) ........................................... 4
Transocean Offshore Deepwater Drilling, Inc.
v. Maersk Drilling USA, Inc., 699 F.3d
1340 (Fed. Cir. 2012) .................................................... 4
RULES
Fed. Cir. R. 36 .............................................................. 2, 7, 8

INTRODUCTION
Amarin invested heavily to develop VASCEPA®—
its only drug on the market. No one had developed a
treatment for severe hypertriglyceridemia that does
not raise harmful LDL-C before Amarin, and yet the
lower courts found Amarin’s invention obvious by viewing the prior art in hindsight. That erroneous framework hinders research and innovation, as amici explained. The Court should grant certiorari, hold that
Graham’s totality framework governs, and restore
proper incentives for innovation. See Graham v. John
Deere Co. of Kansas City, 383 U.S. 1 (1966).
Respondents’ opposition misunderstands the totality framework this Court prescribed. Respondents repeatedly point to the district court’s statement that it
found obviousness “in view of all four Graham factors”
(Pet. App. 92a), which they argue shows a totality analysis. But the problem with the district court’s decision,
as Amarin explained, is that it found prima facie obviousness based solely on Graham’s technical factors and
only then turned to objective indicia to ask if they rebutted that finding. As dissenting Federal Circuit
judges have explained, such two-tiered analysis artificially diminishes the weight accorded to objective indicia and incorrectly shifts the burden to the patentee to
show nonobviousness. By contrast, Graham’s totality
framework requires consideration of all four factors together before making any obviousness determination,
so that objective indicia can effectively guard against
hindsight bias.
Respondents assert that KSR International Co. v.
Teleflex Inc., 550 U.S. 398 (2007), blessed the prima facie approach, but KSR did not even mention the prima
facie framework, and objective indicia were not at issue

2
in that case. To the extent the Court in KSR stated
that the prior art supported obviousness and the objective indicia did not dislodge that conclusion, that was
only because the Court was considering (and invalidating) a test that concerned the technical factors. After
all, KSR noted that any one Graham factor may be considered first, rejecting a mode of analysis that (like the
prima facie framework) always considers objective indicia last. And although respondents contend there is
no conflict within the Federal Circuit, Amarin never
argued an intra-circuit conflict. As Amarin explained,
the Federal Circuit has now settled on the prima facie
framework, which reinforces the need for this Court’s
review.
None of respondents’ purported vehicle issues presents an obstacle to certiorari. While respondents argue (Opp. 1) that the Federal Circuit’s summary affirmance “does not raise any issue at all,” this Court has
reviewed summary-affirmance cases, including recently
a Rule 36 judgment. See Pet. 30. Similarly, the district
court’s factual findings, including its statement that the
evidence of objective indicia was “weak” (Pet. App.
92a), have little relevance at this stage. The proper
Graham framework is a threshold legal issue in any obviousness inquiry and the only question presented here.
If the Court holds that the lower courts applied an incorrect framework, the remaining factual questions are
for the lower courts to decide on remand. Moreover,
the district court found objective indicia weak because
it viewed them through the wrong legal lens and allowed some of those indicia to undermine others, all
pursuant to the erroneous prima facie framework.

3
ARGUMENT
I.

THE FEDERAL CIRCUIT’S PRIMA FACIE FRAMEWORK
CONFLICTS WITH THIS COURT’S PRECEDENT

Respondents argue that the prima facie framework
is “consistent with both this Court’s and the Federal
Circuit’s precedent.” Opp. 25. But Graham, KSR, and
other decisions of this Court require consideration of all
Graham factors together before reaching any obviousness conclusion, instead of making a prima facie obviousness determination based solely on the technical factors and then considering objective indicia merely as
rebuttal. Pet. 18-21. The fact that the Federal Circuit
has now decided to consistently authorize the prima facie framework supports certiorari, because it shows
that the erroneous legal framework is here to stay absent this Court’s intervention.
A. Respondents argue that objective indicia may be
relegated to a second tier because the Court in Graham
called them “secondary considerations” that “might be
utilized” and “may have relevancy.” Opp. 26 (emphases
omitted). But the reference to “secondary” is not prescriptive. To the contrary, the Court emphasized that
objective indicia can play an important role that no other Graham factor can: they “‘guard against slipping into use of hindsight’” and “resist the temptation to read
into the prior art the teachings of the invention in issue.” Graham, 383 U.S. at 36. And while objective indicia obviously play no role when they are not present,
and may be more or less important depending on the
strength of the evidence, none of that suggests that,
where present, objective indicia are subsidiary to the
technical factors, as the Federal Circuit now holds.
Likewise, this Court’s observation that objective
indicia “should, in a close case, tip the scales in favor of

4
patentability,” Goodyear Tire & Rubber Co. v. Ray-OVac Co., 321 U.S. 275, 279 (1944) (quoted at Opp. 26),
does not diminish the relative importance of objective
indicia. As the Court explained in Graham, objective
indicia “give light to the circumstances surrounding the
origin” of the invention, including the technical factors.
383 U.S. at 17-18. In an ordinary case, therefore, objective indicia may illuminate whether the technical factors in fact present “a close case.” Graham’s totality
framework ensures a fair shake to objective indicia so
that they can tip the scales in favor of nonobviousness
in an appropriate case. Pet. 19-21. The prima facie
framework, by contrast, systematically disadvantages
objective indicia by limiting their role to rebuttal and
all but ensures that they will not matter. Pet. 22-24.
Indeed, the Federal Circuit has “rarely held” that evidence of objective indicia is “extensive” and thus “sufficient to overcome a prima facie case of obviousness.”
Transocean Offshore Deepwater Drilling, Inc. v.
Maersk Drilling USA, Inc., 699 F.3d 1340, 1354 (Fed.
Cir. 2012); see also Ohio Willow Wood Co. v. Alps
South, LLC, 735 F.3d 1333, 1344 (Fed. Cir. 2013).
KSR confirms the distinction between the totality
framework that Graham requires and the prima facie
framework that the Federal Circuit has now imposed.
Although the Court in KSR explained that the “the sequence of the[] questions” posed by Graham’s four factors may be “reordered” in any given case, 550 U.S. at
399, the prima facie framework predetermines that objective indicia will be considered last and only to rebut
an obviousness determination already made. Respondents misunderstand that fundamental incompatibility.
See Opp. 27. Even within the totality framework,
courts may well consider objective indicia last. What
contravenes this Court’s precedent is a two-tiered in-

5
quiry that determines prima facie obviousness first, before considering any objective indicia invariably as the
last step.1
Contrary to respondents’ argument (Opp. 26), KSR
did not apply “the same ‘framework’” as the Federal
Circuit now requires. As an initial matter, KSR nowhere mentions a prima facie framework. The question
there was whether the Federal Circuit may employ a
rigid “‘teaching, suggestion, or motivation’ test (TSM
test)” that required motivation or suggestion derived in
part from the technical factors to show obviousness.
550 U.S. at 407. The Court invalidated that test and
instead addressed the technical factors more holistically, which supported obviousness. Id. at 415, 422-426.
The Court then stated that “[l]ike the District Court,”
it concluded that the patent licensee had “shown no
secondary factors to dislodge” its obviousness determination. Id. at 426.
The Court’s phrasing in no way opined on—much
less minimized—the role of objective indicia, which
were not at issue in KSR. Rather, the opinion’s wording reflected the fact that it reviewed and invalidated
the TSM test, which concerned the technical factors.
The Court thus focused on those factors in order to
show how they should be considered instead of the
TSM test. The statement regarding objective indicia
merely agreed with the district court that there were
no valid objective indicia, an observation necessary to
find obviousness (see Opp. 28). The Court nowhere authorized the Federal Circuit’s prima facie framework,
especially given that the Court warned against hind1

For similar reasons, respondents’ argument (Opp. 27) that
Amarin waived its KSR argument by listing objective indicia last
in its district court post-trial briefing is meritless.

6
sight bias and explained that any one Graham factor
may be considered first. See 550 U.S. at 407, 421.
B. Respondents argue bizarrely there is no “relevant conflict within the Federal Circuit.” Opp. 27. But
that is just the problem—despite well-founded misgivings about the prima facie framework years ago, the
Federal Circuit has now made up its mind and the prima facie framework has become the rule. Pet. 21-24.
Contrary to respondents’ view, the difference between the prima facie framework and the totality
framework is not just “semantic” (Opp. 28-29).2 Respondents do not appear to dispute that the legal
framework affects the outcome of the analysis or that
the prima facie framework leads to over-invalidation of
patents. See Pet. 28-30. In any event, the fact that this
Court has found patentability based on objective indicia
in prior cases (Pet. 19-21), whereas the Federal Circuit
(by its own admission) rarely has, shows how consequential the prima facie framework can be in an obviousness inquiry.
II. THIS CASE PLAINLY RAISES THE QUESTION PRESENTED
A. This case undoubtedly presents the permissibility of the prima facie framework. The district court
was first “persuaded” of prima facie obviousness based
solely on the technical factors; only then did it turn to
objective indicia to see if they rebutted that determina2

Contrary to respondents’ assertion (Opp. 28), Amarin did
not agree that the use of a prima facie framework is “a question of
semantics, not substance.” What Amarin noted is that courts
could follow Graham’s framework where they consider all factors
before making any obviousness determination, even if they nominally use the language of a prima facie case. See C.A. Opening Br.
44-45; C.A. Reply Br. 3. That is not what the district court did
here.

7
tion. Pet. App. 75a-76a, 81a; see Pet. 14-15. In fact, it
could not have been clearer that the district court addressed objective indicia separately from the technical
factors—contrary to Graham’s totality framework—
because the court found that VASCEPA’s satisfaction
of a long-felt but unmet need and commercial success
were “outweighed by” certain “other proffered secondary considerations.” Pet. App. 92a. Plainly, the court
considered objective indicia to be a category unto
themselves wherein different considerations may undermine each other, rather than each objective consideration directly contributing to the overall obviousness
determination as other Graham factors would. Pet. 2627.
Respondents assert (Opp. 21) that the district court
applied Graham’s totality framework because it “reserved its conclusion of obviousness until after reviewing ‘all four Graham factors,’” but the district court’s
decision contradicts that view. The court’s concluding
statement that Amarin’s invention was obvious “in
view of all four Graham factors” (Pet. App. 92a) does
not refute the district court’s adherence to the prima
facie framework. The court determined that Amarin’s
invention was prima facie obvious based solely on Graham’s technical factors, and then found that the objective indicia did not rebut that determination, resulting
in the very problems that dissenting Federal Circuit
judges have identified. See Pet. 22-24. Those are not
“the same legal standards that Amarin asks this Court
to uphold.” Opp. 20.
B. Respondents’ broad assertion (Opp. 18) that the
Federal Circuit’s Rule 36 judgment “does not implicate
any question at all” is untenable. By that standard, the
Federal Circuit could insulate its decisions from this
Court’s review simply by issuing summary affirmances,

8
which it does in about 30% of its cases. See Pet. 30-31.
Understandably, the Court has not adopted such a categorical rule, having granted review in summaryaffirmance cases including where the Federal Circuit
issued a Rule 36 judgment (see Pet. 30)—none of which
respondents address. And respondents’ related argument (Opp. 18) that summary affirmance cannot “‘signal’ anything” because it is not precedential has it
backwards. As Amarin explained (Pet. 30), the Federal
Circuit’s apparent belief that its decision would have
“no precedential value,” Fed. Cir. R. 36(a), shows that
the court will not revisit the permissibility of the prima
facie framework on its own, thus confirming that the
issue is ripe for this Court’s intervention.
There is nothing objectionable about Amarin’s “vacate and remand” request either. In the event the
Court determines that the lack of a Federal Circuit
opinion somehow presents an obstacle to granting review, the Court should vacate and remand with instructions on Graham’s totality framework. Pet. 31. That
alternative request is no more “micromanagement”
(Opp. 19) than what this Court has done in prior cases.
Pet. 31 (citing cases).
III. THE REMAINING ISSUES ARE FOR LOWER COURTS TO
DECIDE
Respondents contend that applying Graham’s totality framework would not change the outcome because the district court made various factual findings
that respondents believe would support obviousness at
any rate. Opp. 22-25. In the first place, the existence of
factual issues is no ground to deny review. If the Court
holds the prima facie framework impermissible (a
threshold legal issue and the only question presented
here), it is for the lower courts to apply the proper

9
framework on remand, including by revising any factual findings as appropriate.3 It makes particularly little
sense for certiorari to depend on a factual issue that the
district court (or the Federal Circuit) did not address,
such as whether VASCEPA’s commercial success
lacked nexus to the patent claims. Opp. 24-25.
In any event, respondents are wrong on the merits.
Respondents argue (Opp. 22-24) that this was not a
close case because the district court found that the
technical factors supported obviousness and deemed
objective indicia to be “weak” (Pet. App. 92a). But the
court’s conclusion that the prior art supported obviousness was possible only by viewing the prior art in hindsight without regard for objective indicia. For instance, the objective evidence showed that no one had
developed a treatment for severe hypertriglyceridemia
that does not raise LDL-C, despite the asserted prior
art teachings. Pet. 25-26. Moreover, the court concluded that objective indicia were “weak” only because it
allowed its prima facie obviousness finding to devalue
objective indicia. For example, the court found that the
long-felt but unmet need for VASCEPA only “slightly”
favored nonobviousness because the improvement that
Amarin’s invention represented was “a prima facie obvious one.” Pet. App. 89a (emphasis added). The court
then exacerbated the problem by allowing objective indicia to cancel each other out. Pet. App. 88a-92a. Respondents’ argument (Opp. 29) that the district court’s
statement adopting that approach is “a single sentence
out of context” is flatly wrong. Under the heading
“Weighing These Secondary Considerations,” the court
3

Just because Amarin seeks review of the prima facie framework does not mean it “abandoned” (Opp. 22-23) other arguments
that may be relevant on remand.

10
stated that the objective indicia it found were “outweighed” by “other proffered secondary considerations” that it disagreed with and “[t]hus, at best, [Amarin] ha[s] presented weak evidence of the existence of
secondary considerations, which do not overcome the
Court’s finding that all Asserted Claims are prima facie
obvious.” Pet. App. 91a-92a. The “context” speaks for
itself.4
There is also no basis to discount VASCEPA’s
commercial success. See Opp. 24-25. If anything, the
fact that a large portion of VASCEPA’s sales comes
4

Respondents’ Statement is replete with one-sided and often
misleading characterizations of the record. For example, although
respondents state (Opp. 8, 14) that “at least five prior-art studies
on pure EPA included patients with” severe hypertriglyceridemia,
none involved populations with severe hypertriglyceridemia.
They were thus inadequate to form conclusions about EPA’s effects on those populations, as respondents’ own expert admitted.
C.A.J.A. 1398-1399. Respondents’ focus on Lavin’s declaration
(Opp. 13-14) is likewise a distraction. The Examiner did not rely
on his declaration (C.A.J.A. 88046-88053), and respondents’ expert
admitted that Hayashi—the subject of Lavin’s declaration—was
“not telling us anything about the effect of EPA on LDL-C values
in severely hypertriglyceridemic patients” (C.A.J.A. 1493-1494).
Respondents also rely on an email from Dr. Bays to argue that the
results of Amarin’s clinical trial (the MARINE study) were not
unexpected (Opp. 12), contrary to a statement in Dr. Bays’s own
published article that the results were unexpected (C.A.J.A.
90096). But Dr. Bays testified that he was unsure of what he
meant in the email, which predated his peer-reviewed article, because his “expectation was, prior to getting the results of the MARINE trial … that the LDL cholesterol levels would rise after
administration of [EPA] in patients with very high triglyceride
levels” (C.A.J.A. 3437-3439, 3445-3447, 48679). Finally, none of
Amarin’s supposed “concessions” (Opp. 15-16) changes the key
point that there was no reasonable expectation of success that
EPA would avoid LDL-C increase in patients with severe hypertriglyceridemia, which respondents were required to prove to establish obviousness.

11
from patients with triglyceride levels below 500 mg/dL
(i.e., not “very high” or “severe”) supports nonobviousness. As Amarin explained below, healthcare providers
typically have the option, based on their medical judgment, to prescribe drugs that (like VASCEPA) treat
very high levels of triglycerides to patients with lower
triglyceride levels. C.A.J.A. 103303. Had Amarin’s invention been obvious, other pharmaceutical companies
would have been induced to bring a drug like VASCEPA to market sooner because of the potential for considerable sales to patients with very high and lower
triglyceride levels. Id. But they did not. In any event,
even VASCEPA’s net sales to only those patients with
severe hypertriglyceridemia have increased sixfold
since VASCEPA’s launch, further supporting the nexus between VASCEPA’s commercial success and the
asserted claims. C.A.J.A. 103303, 2189.
CONCLUSION
The petition for a writ of certiorari should be
granted.

12
Respectfully submitted.
MARK C. FLEMING
AMY R. PEARLMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
JONATHAN E. SINGER
FISH & RICHARDSON P.C.
12390 El Camino Real
San Diego, CA 92130
(858) 678-5634

JUNE 2021

SETH P. WAXMAN
Counsel of Record
CLAIRE H. CHUNG
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

